                                              MINE SAFETY AND
                                              HEALTH ADMINISTRATION

Office of Inspector General—Office of Audit




                                              JOURNEYMAN MINE INSPECTORS DO NOT
                                              RECEIVE REQUIRED PERIODIC RETRAINING




                                                                Date Issued:     March 30, 2010
                                                             Report Number:    05-10-001-06-001
U.S. Department of Labor                              March 2010
Office of Inspector General
Office of Audit                                       JOURNEYMAN MINE INSPECTORS DO NOT
                                                      RECEIVE REQUIRED PERIODIC RETRAINING

BRIEFLY…
Highlights of Report Number 05-10-001-06-001, to      WHAT OIG FOUND
the Assistant Secretary for the Mine Safety and       During fiscal years (FY) 2007-2008, MSHA
Health Administration (MSHA).                         increased the number of inspectors by 26 percent
                                                      and provided initial training to more than 350
WHY READ THE REPORT                                   entry-level inspectors. However, 56 percent of the
This report examines MSHA’s efforts to provide        102 journeyman inspectors we sampled had not
initial training for newly hired (entry-level)        completed MSHA’s required retraining during the
inspectors and periodic retraining for experienced    FY 2006-2007 training cycle. MSHA lacked
(journeyman) inspectors. Without sufficient           controls to track and assure completion of required
training, MSHA inspectors may not possess the         periodic retraining by journeyman inspectors, and
up-to-date knowledge of health and safety             there were no consequences for not attending
standards or mining technology needed to perform      retraining courses.
their inspection duties.
                                                      MSHA also authorized one individual to perform
To insure the health and safety of miners, MSHA       inspection duties without requiring him to complete
personnel conduct frequent inspections in the         the minimum entry-level training requirements.
nation’s 14,000+ mines each year. As required by      MSHA had not defined circumstances that
the Federal Mine Safety and Health Act of 1977,       permitted a waiver of the training requirements nor
MSHA develops and maintains programs for the          had they documented the rationale for waiving the
training and continuing education of these            training requirements in this instance.
inspectors. The training is based on the specific
technical needs associated with examining mines       We identified several examples of training records
within an inspector’s assigned program area –         for entry-level inspectors that lacked timely
Coal or Metal/Nonmetal.                               supporting documentation. MSHA’s system for
                                                      recording training activity lacked sufficient controls
Training for entry-level inspectors combines          to assure that adequate documentation was
classroom instruction (21-23 weeks) at the Mine       maintained to support training completion.
Health and Safety Academy intermingled with
on-line training components and on-the-job training   WHAT OIG RECOMMENDED
conducted in the field. Journeyman inspectors are     We made seven recommendations to the Assistant
required to receive one week of specified             Secretary for Mine Safety and Health. In summary,
retraining each year, or two weeks every other        we recommended that MSHA hold supervisors
year.                                                 accountable for assuring that journeyman
                                                      inspectors complete retraining, suspend an
WHY OIG CONDUCTED THE AUDIT                           individual’s health and safety inspection activities if
The OIG audited MSHA’s Mine Inspector Training        designated retraining was not completed,
Program to answer the following question:             re-emphasize MSHA management’s commitment
                                                      to training, develop policies and procedures to
Do MSHA inspectors receive training to effectively    justify and document waivers of minimum training
execute their regulatory responsibilities?            requirements, strengthen requirements and
                                                      controls for recording and supporting completed
READ THE FULL REPORT                                  training, and re-emphasize the importance of
To view the report, including the scope,              entry-level inspectors performing OJT tasks under
methodology, and full agency response, go to:         proper supervision of an experienced inspector.

http://www.oig.dol.gov/public/reports/oa/2010/05-1    The Assistant Secretary generally agreed with our
0-001-06-001.pdf                                      recommendations and committed to implementing
                                                      corrective actions.
                                                     U. S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ....................................................................... 1


Results In Brief ............................................................................................................ 3


Objective — Do MSHA inspectors receive training to effectively execute 

            their regulatory responsibilities?...........................................................4


         Finding 1 — Fifty-six percent of MSHA journeyman inspectors sampled 

                      had not received required periodic retraining ................................ 4


         Finding 2 — One individual was authorized to perform inspection duties 

                     without completing the minimum training requirement .................. 7


         Finding 3 — The Academy lacked timely and adequate support 

                      documentation for some completed training ................................. 9



Recommendations .................................................................................................... 11


Exhibit 


         Exhibit 1 — Survey Information ........................................................................ 15


Appendices

         Appendix A Background ................................................................................... 21

         Appendix B Objective, Scope, Methodology, and Criteria ................................ 23

         Appendix C Acronyms and Abbreviations ........................................................ 27

         Appendix D MSHA Response to Draft Report .................................................. 29

         Appendix E Acknowledgments ......................................................................... 33





                                                                                  MSHA Inspector Training Program
                                                                                            Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
                                     Report No. 05-10-001-06-001
                                                U. S. Department of Labor – Office of Inspector General



U.S. Department of Labor                             Office of Inspector General
                                                     Washington, D.C. 20210


March 30, 2010


                               Assistant Inspector General’s Report



Joseph A. Main
Assistant Secretary for
Mine Safety and Health Administration
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, Va. 22209

The Office of Inspector General (OIG) conducted a performance audit of the Mine
Safety and Health Administration’s (MSHA) Training Program for both entry-level and
journeyman mine inspectors. One of MSHA’s primary responsibilities is to conduct
frequent inspections and investigations in coal and other mines each year. Authorized
representatives of the Secretary of Labor, commonly referred to as inspectors, are
specifically trained and tasked to complete these inspections. The Federal Mine Safety
and Health Act of 1977 (Mine Act) requires the Secretary to develop and maintain
“adequate programs for the training and continuing education of persons, particularly
inspectors” to carry out its provisions. 1

MSHA divides mine enforcement into two program offices — Coal Mine Safety and
Health (Coal) or Metal and Nonmetal Mine Safety and Health (Metal/Nonmetal).
Inspectors receive training based on the specific technical needs associated with
examining mines within their assigned program area. Training for entry-level Coal and
Metal/Nonmetal inspectors consists of six modules of classroom instruction totaling 21
and 23 weeks respectively at MSHA’s National Mine Health and Safety Academy
(Academy). Intermingled with the classroom sessions, entry-level inspectors must
complete specific on-line training components and on-the-job (OJT) sessions while in
the field. This prescribed training regimen is generally completed over a 12-16 month
period. Subsequent to this initial training, MSHA policy requires that journeyman
inspectors, in both Coal and Metal/Nonmetal, receive one week of specified retraining
each year, or two weeks every other year.

At the end of fiscal year (FY) 2008, MSHA employed 1,037 inspectors consisting of
358 entry-level 2 inspectors (282 in Coal and 76 in Metal/Nonmetal) and 679 journeymen

1
 The Federal Mine Safety and Health Act of 1977, Section 505. 

2
 For purposes of our audit, an entry-level inspector was defined as one who was designated as an Authorized 

Representative by MSHA between October 1, 2006 and September 30, 2008.


                                                                            MSHA Inspector Training Program
                                                         1
                        Report No. 05-10-001-06-001
                                       U. S. Department of Labor – Office of Inspector General


inspectors (316 in Coal and 363 in Metal/Nonmetal). This represented a 26 percent
increase of inspector staffing levels at the end of FY 2006. Additional background
information is contained in Appendix A.

We conducted an audit of MSHA‘s Inspector Training Program to answer the following
question:

       Do MSHA inspectors receive training to effectively execute their regulatory
       responsibilities?

The audit examined whether (a) entry-level inspectors in FYs 2007 and 2008 completed
MSHA’s designated training curriculum and (b) journeymen inspectors completed
MSHA’s designated retraining course(s) within the most recent two-year training cycle
(FYs 2006-2007). The audit did not evaluate the appropriateness of the curriculum’s
technical content or the quality of the instruction. In addition, the audit did not attempt to
correlate inspector training to the rate of accidents, injuries, or fatalities in mines.

To accomplish our objective we obtained an understanding of the MSHA Training
program for both entry-level and journeyman inspectors through interviews with Coal,
Metal/Nonmetal, and Academy officials. We evaluated the extent to which inspectors
had completed the training prescribed by MSHA and offered by the Academy through
an examination of training transcripts and supporting documentation for a sample of
inspectors onboard as of September 30, 2008. For entry-level inspectors, we reviewed
training records for FYs 2007 and 2008 because these years provided the most recently
completed training information at the start of the audit. For journeyman inspectors, we
reviewed training records for FYs 2006 and 2007 because this was the most recent
2-year training cycle that had been completed when the audit began. Since the FY
2008/2009 training cycle was completed during the audit, we performed additional work
to examine this period for selected journeyman inspectors in the audit sample.

To assess inspectors’ views of MSHA sponsored training, we conducted an email
survey of all 1,145 inspectors on board as of September 2, 2009. We summarized and
analyzed the information contained in the 494 responses we received. This represented
a 43 percent response rate to our survey.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.




                                                            MSHA Inspector Training Program
                                              2
                   Report No. 05-10-001-06-001
                                       U. S. Department of Labor – Office of Inspector General


RESULTS IN BRIEF

During FYs 2007-2008, MSHA increased the total number of inspectors by 26 percent
and provided training for more than 350 entry-level inspectors. However, MSHA did not
assure that its journeyman inspectors received required periodic retraining. Fifty-six
percent of the 102 journeyman inspectors we sampled had not completed MSHA’s
required periodic retraining during the FY 2006-2007 training cycle; three of these
journeyman inspectors had not received retraining since the inception of MSHA’s
training policy in 1998. This occurred because (1) MSHA lacked controls, at both the
headquarters and district levels, to track and assure completion of required periodic
retraining by journeyman inspectors and (2) there were no consequences for not
attending retraining courses. As a result, MSHA inspectors may not possess the up-to-
date knowledge of health and safety standards or mining technology needed to perform
their inspection duties. In fact, 27 percent of the 264 journeyman inspectors who
responded to our survey believed that MSHA did not provide them with the technical
training they needed to effectively perform their duties. More specifically, these
respondents stated that MSHA training did not provide them with sufficient knowledge of
mining laws and regulations (11 percent), MSHA policies (14 percent), MSHA
procedures (14 percent), and current mining technology (23 percent). Lack of training
increases the possibility that hazardous conditions may not be identified and corrected
during inspections which, in turn, could increase the risk of accidents, injuries, fatalities,
and adverse health conditions for miners.

MSHA also authorized one individual to perform inspection duties without requiring him
to complete the minimum number of entry-level training modules. MSHA had not
defined circumstances that permitted a waiver of the training requirements nor had they
documented the rationale for waiving the training requirement in this instance.

In addition, we identified several examples of individual training records for entry-level
inspectors that lacked supporting documentation. MSHA’s system for recording training
activity lacked sufficient controls to assure that adequate documentation was
maintained to support training completion. Since completion of a minimum level of
training is part of MSHA’s requirement to become an inspector, incomplete training
records create a risk that an individual could be designated as an inspector without
having completed sufficient training.

In responding to our draft report, the Assistant Secretary for Mine Safety and Health
stated that MSHA has long recognized the importance of training and has a long history
of providing continual learning opportunities for its employees. He acknowledged,
however, that MSHA’s internal controls for ensuring inspectors received training could
be improved. He agreed to revise existing polices and procedures, including developing
clear guidelines of accountability for completing required training, and reemphasizing
MSHA’s commitment to maintain a well trained workforce. The Assistant Secretary’s
entire response is contained in Appendix D.




                                                            MSHA Inspector Training Program
                                              3
                   Report No. 05-10-001-06-001
                                                 U. S. Department of Labor – Office of Inspector General


We recommended the Assistant Secretary for the Mine Safety and Health
Administration (1) implement procedures and controls to hold supervisors accountable
(e.g., policies, performance standards, etc.) for assuring that all journeyman inspectors
complete required periodic retraining, (2) revise MSHA’s training policy to suspend an
individual’s inspection activities if designated retraining is not completed as required,
(3) develop and implement written policies and procedures to justify and document
cases in which completion of minimum training requirements are waived for an
inspector, (4) revise automated training records to include the date that OJT modules
are completed, and (5) implement controls to assure that training records are fully
supported to validate training as it is completed.

RESULTS AND FINDINGS

Objective — Do MSHA inspectors receive training to effectively execute their
            regulatory responsibilities?


Not all MSHA inspectors received the training prescribed by MSHA policy to effectively
execute their regulatory responsibilities. Although almost all new hires were completing
the training curriculum prescribed to be authorized as entry-level inspectors, most
journeyman inspectors had not received required periodic retraining. In addition, several
training transcripts reviewed contained inaccuracies or lacked appropriate supporting
documentation.

Finding 1 — Fifty-six percent of MSHA journeyman inspectors sampled had not
            received required periodic retraining.

Fifty-six percent of 102 MSHA journeyman inspectors non-statistically sampled had not
received MSHA’s required periodic retraining during the FY 2006-2007 training cycle.
Three of these selected journeyman inspectors had not completed the required periodic
retraining since the inception of MSHA’s training policy in 1998. This occurred because
(1) MSHA lacked controls, at both the headquarters and district levels, to track and
assure completion of required periodic retraining by journeyman inspectors and
(2) there were no consequences for not attending retraining courses. As a result, MSHA
inspectors may not possess the up-to-date knowledge of health and safety standards,
MSHA policies or procedures, or current mining technology needed to perform their
inspection duties. In fact, 27 percent of the 264 inspectors who responded to our survey
believed that MSHA did not provide them with the technical training they needed to
effectively perform their duties. This increases the possibility that hazardous conditions
may not be identified and corrected during inspections which, in turn, could increase the
risk of accidents, injuries, fatalities, and adverse health conditions for miners.

The Mine Act 3 requires that:


3
    The Federal Mine Safety and Health Act of 1977 (Section 505)

                                                                      MSHA Inspector Training Program
                                                          4
                 Report No. 05-10-001-06-001
                                     U. S. Department of Labor – Office of Inspector General


      In selecting persons and training and retraining persons to carry out the
      provisions of this Act, the Secretary [of Labor] shall… [develop and
      maintain] adequate programs for the training and continuing education of
      persons, particularly inspectors….

In a June 1998 memorandum, then Assistant Secretary of MSHA, J. Davitt McAteer
wrote:

      It is the obligation of MSHA to routinely and systematically upgrade the
      skills of our workforce which is vital to the effectiveness of our Agency. To
      this end, I am now implementing the MSHA Training Committee
      recommendation for all MSHA employees to attend 1 week of training per
      year, or 2 weeks every other year…. [J]ourneyman inspectors … will
      receive training targeted specifically to them.

As stated in the Course Catalog published annually by MSHA’s Mine Health and Safety
Academy:

      Our Nation’s mines produce more material than ever before. Sophisticated
      machinery and equipment allow miners to work in areas that are often
      complex and dangerous. Mining technology changes constantly and every
      mine is unique. This is why mine safety and health inspections, technical
      and engineering assistance, and education and training are such
      important elements in ensuring a safe workplace …

      Up-to-date and practical health and safety training is vital since mining
      occurs in a hazardous, ever-changing environment where there is little
      room for error …

      Journeyman training presents up-to-date technical and regulatory
      information to journeyman mine safety and health inspectors to help them
      ensure that the mining community is served most effectively.

Of the 264 inspectors who responded to our audit survey, 89 percent agreed that
periodic technical training was important to the performance of their job. However,
16 percent stated that they were not aware of MSHA’s policy on Employee Training.

Each year the Academy develops and offers a specific course for journeymen
inspectors in Coal and Metal/Nonmetal designed to satisfy MSHA’s requirement for
ongoing retraining.

A review of MSHA’s training records for a non-statistical sample of journeyman
inspectors (Table 1), indicates that 55 percent of Coal, and 57 percent of
Metal/Nonmetal journeyman inspectors in the audit sample had not completed this
required retraining during the FY 2006-2007 training cycle.



                                                          MSHA Inspector Training Program
                                            5
                   Report No. 05-10-001-06-001
                                           U. S. Department of Labor – Office of Inspector General



           Table 1 – Journeyman Inspectors Not Completing Retraining
                                                           Journeyman Inspectors Who Did 

                           Total            Sample of      Not Complete MSHA’s Retraining 

                        Authorized         Journeyman        Courses in FYs 2006 or 2007 

       Program          Inspectors          Inspectors
         Area         (as of 09/30/08)       Reviewed         Number           Percentage
    Coal                           598               42                 23              55%
    Metal/Nonmetal                 439               60                 34              57%
    Total                        1,037              102                 57              56%

MSHA officials stated that the ability to complete journeyman retraining during the
FY 2006-2007 cycle had been adversely impacted by a series of mining accidents that
occurred during those years. Those accidents required numerous journeyman
inspectors to be assigned to accident investigation or internal review teams. These
additional duties did not allow available time needed to attend training.

To determine whether the FY 2006-2007 training cycle was an aberration, we
performed an additional analysis to determine when the journeyman inspectors in our
audit sample had last completed the prescribed retraining. The results (Table 2) show
that the lapse in journeyman retraining is not limited to the FY 2006-2007 training cycle.
In our audit, 12 of 23 Coal journeyman inspectors and 7 of 34 Metal/Nonmetal
journeyman inspectors had not completed retraining in either the FY 2004-2005 or the
FY 2006-2007 training cycles.

           Table 2 – Last Year Journeyman Retraining was Completed
                                                    Coal            Metal/Nonmetal
                                                Journeyman           Journeyman
                       Years                     Inspectors           Inspectors
                       2005                          6                    15
                       2004                          5                    12
                       2003                          3                     5
                       2002                          4                     1
                       2001                          2                     0
                       2000                          1                     0
            Retraining was prior to 1998             2                     1
                       Total                         23                   34

In the worst cases, three inspectors (2 in Coal, 1 in Metal/Nonmetal) had not completed
the required periodic retraining since MSHA had established the requirement in 1998.

Since the FY 2008-2009 training cycle was completed during the course of our audit, we 

also examined records for those years to determine how many of the journeyman 

inspectors in our sample that did not complete retraining in the FY 2006-2007 cycle had 

attended the training in this subsequent cycle. Training records showed that 15 of 23 

Coal journeyman inspectors (65 percent) and 22 of 34 Metal/Nonmetal journeyman 


                                                                MSHA Inspector Training Program
                                                  6
                   Report No. 05-10-001-06-001
                                       U. S. Department of Labor – Office of Inspector General


inspectors (65 percent) who failed to attend retraining in FYs 2006 or 2007 had still not
completed retraining by the end of FY 2009. MSHA officials stated that the time required
to fulfill MSHA’s emphasis on completing 100 percent of all mandatory inspections in FY
2008 had prevented journeyman inspectors from attending retraining.

MSHA had no systems or controls in place to assure that journeyman inspectors
attended and completed scheduled retraining. Academy officials stated that while they
design and schedule the prescribed retraining courses, they have no authority to require
that inspectors register for or attend the courses. That authority rests with individual
supervisors in Coal and Metal/Nonmetal.

As previously stated, time for training can be absorbed by other program priorities
including accident investigations and mandatory inspections. Of the 264 inspectors who
responded to our audit survey, 54 percent agreed that MSHA HQ viewed training as a
high priority and 65 percent agreed that their immediate supervisor viewed training as a
high priority. In addition, 50 percent agreed that MSHA provided them with the technical
training they needed to effectively perform their duties and 53 percent agreed that
MSHA provided them with time away from their normal duties to attend training. Of the
264 journeyman inspectors that responded to our survey, 39 percent agreed that they
received ongoing or refresher training on a regular basis.

Lack of periodic retraining reduces the assurance that MSHA mine inspection personnel
are properly trained to effectively conduct their inspection responsibilities, thus
increasing the possibility that health and safety hazards are not identified and corrected.
Poor quality inspections, in turn, increase the risk of injury to miners.

When asked how MSHA training impacted their ability to perform their duties,
12 percent of the 264 journeyman respondents to our survey stated that training they
received at the Academy did not improve their performance. Some also stated that
based on MSHA training, their knowledge of mining laws and regulations (11 percent of
respondents), MSHA policies (14 percent of respondents), MSHA procedures
(14 percent of respondents) and current mining technology (23 percent of respondents)
was not sufficient.

In responding to our draft report, the Assistant Secretary agreed to reemphasize the
importance of training; hold District Managers, Assistant District Managers, and Field
Office Supervisors accountable for assuring that journeyman inspectors complete the
required retraining; and develop a policy addressing situations that may delay an
inspector’s retraining. We believe this policy should include a provision to suspend an
individual’s health and safety inspection activities if retraining is not timely completed.

Finding 2 — One individual was authorized to perform inspection duties without
            completing the minimum training requirement.

MSHA had authorized one of the 90 entry-level Coal and Metal/Nonmetal inspectors in
our audit to perform inspection duties without having completed the minimum training

                                                            MSHA Inspector Training Program
                                              7
                   Report No. 05-10-001-06-001
                                     U. S. Department of Labor – Office of Inspector General


specified. This occurred because MSHA had no written policy defining exceptions to its
training requirement and no requirement that exceptions be justified and documented.
As a result, there is an increased risk that an individual could be authorized to perform
inspection duties without the adequate knowledge, skills, and abilities. This would
adversely impact the quality of inspections and potentially increase safety and health
risks to miners.

The Academy Course Catalogs for FYs 2007 and 2008 state:

      All newly hired MSHA mine safety and health inspectors receive
      entry-level training. This training covers technical aspects of mine
      inspection and additional topics such as effective communications and
      professionalism.

Entry-level training for Coal inspectors includes 21 weeks (six modules) of classroom
instruction, while entry-level Metal/Nonmetal inspectors receive 23 weeks (six modules)
of classroom instruction. Individuals in both groups are also required to complete OJT
session in the field. These OJT sessions are intermingled between classroom sessions
and include specifically defined tasks that must be completed under the supervision of
an experienced inspector.

The decision to authorize an individual as an inspector is made by the Coal or
Metal/Nonmetal Administrator based on the recommendation of the individual’s District
Manager. Both Coal and Metal/Nonmetal officials told us that individuals may be
authorized as inspectors before completing the entire entry-level training curriculum.
However, program officials stated that Coal inspectors must complete the first four
classroom modules and Metal/Nonmetal inspectors must complete the first two
classroom modules and the first OJT module. These training requirements are not
documented in any written directive or policy. Similarly, MSHA has no written policy
defining if or under what circumstances these training requirements can be waived.

In reviewing training records for our sample of entry-level inspectors, we identified one
Metal/Nonmetal inspector who had been authorized to perform inspection duties without
completing the stated minimum training modules. Instead, the inspector had only
observed portions of courses in Module II of Metal/Nonmetal entry-level training. This
individual did not participate in the OJT program. A Metal/Nonmetal official explained
that this individual, although authorized to perform inspection duties, was assigned to a
Headquarters unit in Arlington, Va., and did not perform inspections. The official did
acknowledge, however, that the individual could be called on to (a) conduct inspection
activities, if inspector shortages developed and impacted MSHA’s completion of
100 percent of the Agency’s required inspections; (b) conduct or participate in district
and headquarters enforcement audits; or (c) assist or lead accident investigations. In
these tasks, inspection authority would be necessary.

The Metal/Nonmetal official further explained that the minimum training requirement had
been waived for this individual because of their extensive mining experience, college

                                                          MSHA Inspector Training Program
                                            8
                   Report No. 05-10-001-06-001
                                        U. S. Department of Labor – Office of Inspector General


degree, professional certifications, and extended time as the owner of a safety and
health consulting service.

We have no basis to question the professional judgment exercised by MSHA in granting
inspection authority to this individual. However, to assure that such decisions are based
on consistent criteria and can be defended if the need should arise, it is important for
MSHA to (a) define the circumstances that can permit a waiver of minimum inspector
training requirements and (b) require the rationale for such exceptions to be clearly
documented.

Without these controls, MSHA cannot demonstrate that inspectors possess the
necessary knowledge, skills, and abilities to effectively fulfill their responsibilities.

In responding to our draft report, the Assistant Secretary stated that there could be
limited situations whereby an enforcement employee could have some training
requirements waived. He stated that MSHA would issue a directive that such requests
must be submitted in writing to the respective program Administrator.

Finding 3 — The Academy lacked timely and adequate support documentation for
            some completed training.

The Academy did not (a) maintain documentation to support completion of OJT tasks as
modules were completed throughout the entry-level training process or (b) document
daily class attendance by journeyman inspectors during training at the Academy. This
occurred because (a) the Academy’s procedures were not followed for documenting
OJT tasks and (b) the Academy did not have procedures in place to document daily
classroom training attendance for journeyman inspectors. As a result, MSHA lacked
timely assurance that entry-level inspectors had completed minimum OJT modules
before being authorized as an inspector and evidence that journeyman inspectors had
actually attended classroom training for which they had received credit. The Academy
should implement additional controls to timely validate the reliability of its training data.

Lack of Timely Documentation to Support OJT Module Tasks Completion

As previously explained (see p. 8), specific on-the-job training is a required component
of MSHA’s entry-level training program. The Academy’s OJT Procedures Manual states:

       The Academy's OJT Coordinator is responsible for monitoring Entry Level
       (EL) Inspector's on-the-job training while the EL Inspector is in the field
       receiving coaching and qualifying for his or her [inspector] card … This
       includes managing the system used by the Academy to track each
       student, to collect and process information to be sent to the field and
       received from the field, to maintain the student's records, and to
       coordinate these records with central headquarters personnel.
Entry-level students were required to maintain a written log of all OJT tasks. The log
contained a detailed list of required OJT tasks in each module. A supervisor was

                                                              MSHA Inspector Training Program
                                                9
                    Report No. 05-10-001-06-001
                                      U. S. Department of Labor – Office of Inspector General


required to initial and date each task after it was successfully completed. When all tasks
in an OJT module were accomplished, the individual received credit for that OJT
module in the Academy’s SIS. According to Academy personnel, they reviewed a
student’s log prior to indicating in the SIS that the student had completed a specific OJT
module. However, the SIS only indicated whether an OJT module had been completed.
It did not contain the date that the OJT module had been completed.

In addition, it was the Academy’s practice not to collect and maintain the actual OJT log
pages for completed modules until a student had finished all OJT modules in the
entry-level program. Instead, the student was responsible for keeping the log until all
OJT training had been completed. This practice created a risk that documentation
supporting completion of OJT modules could be lost or damaged. It also prevented
validation of OJT data in SIS until after an individual had completed all entry-level
training. Recording OJT completion dates and maintaining timely supporting
documentation are important because (a) a student may be authorized to perform
inspection duties prior to completing the entire entry-level training program and (b) Coal
and Metal/Nonmetal require completion of a minimum number of OJT modules before
authorizing an individual as an inspector. In our sample, 60 (86 percent) of 70 entry-
level students had received authority to perform inspection duties without the OJT
documentation required by the Academy OJT Procedures Manual.

Our survey of inspectors identified other potential concerns regarding OJT. Thirteen
percent of the 230 entry-level inspectors responding to our survey did not believe that
they had received adequate OJT during their entry-level training. Eleven percent of
these respondents stated that they did not believe they were adequately supervised
while completing OJT tasks and 48 percent stated that they had completed OJT tasks
during their training without a mentor or supervisor present. While we did not
independently validate the inspectors’ assertions, the levels of response are a concern
for the reliability of the OJT program results.

The Academy should implement procedures to record completion dates for OJT
modules and to collect and maintain OJT logs as each module is completed. MSHA
management should re-emphasize to all inspectors the importance of proper completion
and supervision of OJT training.

Lack of Attendance Documentation for Journeymen Trained at the Academy

At the beginning of our audit, we also observed that the Academy was not documenting
the attendance of journeyman inspectors at daily classroom training sessions. Instead,
inspectors were required to fill in the Academy Information Form (AIF) which only
identified the date the inspector arrived at the Academy and the title of the course
attended. Since many Academy courses occur over multiple days, the AIF did not
provide evidence that an inspector had actually attended individual class sessions.

As a result of our initial audit work, in July 2009, the Academy implemented the practice
of requiring students to “sign-in” on a class roster each day during a training course.

                                                           MSHA Inspector Training Program
                                            10
                   Report No. 05-10-001-06-001
                                     U. S. Department of Labor – Office of Inspector General


Maintaining these sign-in sheets provides a much stronger means of supporting and
verifying an individual’s actual attendance at training courses. MSHA should formalize
the practice of requiring sign-in sheets to document attendance at all Academy classes.

In responding to our draft report, the Assistant Secretary stated that MSHA is taking
steps to ensure that completion dates of OJT modules are recorded, currently planning
to develop a database that will allow it to efficiently record and provide output to allow
managers a means to monitor the training progress of inspectors, and will reemphasize
the importance of entry-level inspectors performing OJT tasks under proper supervision.

RECOMMENDATIONS

We recommend the Assistant Secretary for the Mine Safety and Health Administration:

1. Implement procedures and controls to hold supervisors accountable (e.g., policies,
   performance standards, etc.) for assuring that all journeyman inspectors complete
   required periodic retraining.
2. Revise MSHA’s training policy to suspend an individual’s health and safety
   inspection activities if designated retraining is not completed as required.
3. Re-emphasize to all personnel, in writing, MSHA’s training requirements, the
   importance of training, and MSHA management’s commitment to training.
4. Develop and implement written policies and procedures to justify and document
   cases in which completion of minimum training requirements are waived for an
   inspector.
5. Revise automated training records to include the date that OJT modules are
   completed.
6. Implement controls to assure that training records are fully supported to validate
   training as it is completed.
7. Re-emphasize to all inspectors, in writing, the importance of entry-level inspectors
   performing OJT tasks under proper supervision of an experienced inspector.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis

Assistant Inspector General
  for Audit



                                                          MSHA Inspector Training Program
                                           11
                   Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               12
                   Report No. 05-10-001-06-001
            U. S. Department of Labor – Office of Inspector General




Exhibit 





                                 MSHA Inspector Training Program
                  13
                   Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               14
                   Report No. 05-10-001-06-001
                                          U. S. Department of Labor – Office of Inspector General


                                                                                             Exhibit 1 

Survey Information

To assess inspectors’ views of MSHA sponsored training, we emailed a survey to all
1,145 inspectors on board as of September 2, 2009. Responses were anonymous. We
received replies from 494 inspectors within the time period we allowed for responses.
This represents a 43 percent response rate. The responses are summarized in the
following three sections. Section A provides a profile of the respondents. Section B
summarizes responses to questions asked of all journeyman Inspectors. Section C
summarizes responses to questions asked only of entry-level inspectors.


                        Section A – Profile of Survey Respondents


                          Total Number of                 Responses Received
                          Mine Inspection                Entry -
                          Personnel                       Level     Journeyman Responses
Mine Inspection Personnel Surveyed                     Inspectors    Inspectors   Received
Coal                                  719                       191          110          301
Metal/Nonmetal                        426                        39          153          192
Other                                                             0            11          11
Total                               1,145                       230          264          494


                                                                         Metal /
                                                                Coal     Nonmetal Other Total
                                                                  301       192          1      494
1. To which MSHA Program area are you currently assigned?       60.93%    38.87%      0.20%    100%




                                              FOS/
                                              ADM/     SP-not    SPV-
                           MSHI 2   SP-D 3    DM 4     FDO 5     FDO 6   Other       Total
2. Which one of the
   following best           325    108         37         9         1    14           494
   describes your         65.79% 21.86%      7.49%     1.82%     0.20% 2.83.%        100%
   PRIMARY position?




1
  Provided responses to survey, and indicated as other an enforcement sector.
2
  MSHI – Mine Safety and Health Inspector
3
  SP-D – Specialist in District
4
  FOS/ADM/DM – Field Office Supervisor/Assistant District Manager/District Manager
5
  SP-notFDO – Specialist not stationed in a Field or District Office
6
  SPV-FDO – Supervisor not stationed in a Field or District Office

                                                                  MSHA Inspector Training Program
                                                 15
                      Report No. 05-10-001-06-001
                                            U. S. Department of Labor – Office of Inspector General




               Section B – Questions Asked of All Journeyman Inspectors




                                                      Somewhat




                                                                              Somewhat




                                                                                                     Response
                                                                 Agree nor
                                          Disagree



                                                      Disagree




                                                                 Disagree
                                          Strongly




                                                                                          Strongly
                                                                 Neither




                                                                              Agree



                                                                                          Agree




                                                                                                                Total
                                                                                                     No
1. I am aware of MSHA’s policy on           17         24          50          78          93      2   264
    Employee Training                     6.44%      9.09%       18.94%      29.55%      35.23% 0.76% 100%
2. MSHA HQ considers training to be a       20         36          66          63          79      0   264
    high priority                         7.58%      13.64%      25.00%      23.86%      29.92% 0.00% 100%
3. My Immediate Supervisor considers        19         23          50          77          94      1   264
    training to be a high priority        7.20%      8.71%       18.94%      29.17%      35.61% 0.38% 100%
4. MSHA provides me with the
                                            25         46          58          75          58      2   264
    technical training I need to
                                          9.47%      17.42%      21.97%      28.41%      21.97% 0.76% 100%
    effectively perform my duties.
5. Training that I need to perform my
                                            20         35          57          82          70      0   264
    job is readily available through the
                                          7.58%      13.26%      21.59%      31.06%      26.52% 0.00% 100%
    Mine Health and Safety Academy
6. The training that I receive at the
                                            11         21          42          113         77      0   264
    Mine Health and Safety Academy
                                          4.17%      7.95%       15.91%      42.80%      29.17% 0.00% 100%
    improves my job performance.
7. I am provided time away from my          35         40          49          70          69      1   264
    normal duties to attend training.     13.26%     15.15%      18.56%      26.52%      26.14% 0.38% 100%
8. I receive ongoing or refresher           44         64          53          46          57      0   264
    training on a regular basis.          16.67%     24.24%      20.08%      17.42%      21.59% 0.00% 100%
9. Periodic technical training is
                                             6          2          20          70          165     1   264
    important for me to perform my
                                          2.27%      0.76%       7.58%       26.52%      62.50% 0.38% 100%
    duties
10. Based on training that I receive from
    MSHA, my knowledge of mining             6         24          39          92          102     1   264
    laws and regulations is sufficient to 2.27%      9.09%       14.77%      34.85%      38.64% 0.38% 100%
    perform my duties.
11. Based on training that I receive from
    MSHA, my knowledge of MSHA
                                             6         31          48          92          86      1   264
    policies related to mine safety and
                                          2.27%      11.74%      18.18%      34.85%      32.58% 0.38% 100%
    health is sufficient to perform my
    duties.
12. Based on training that I receive from
    MSHA, my knowledge of MSHA
                                             6         30          41          103         84      0   264
    procedures related to mine safety
                                          2.27%      11.36%      15.53%      39.02%      31.82% 0.00% 100%
    and health is sufficient to perform
    my duties.
13. Based on training that I receive from
    MSHA, my knowledge of current           16         44          57          92          53      2   264
    mining technology is sufficient to    6.06%      16.67%      21.59%      34.85%      20.08% 0.76% 100%
    perform my duties.




                                                                        MSHA Inspector Training Program
                                                     16
                         Report No. 05-10-001-06-001
                                                U. S. Department of Labor – Office of Inspector General



                Section C – Questions Asked of Entry-Level Inspectors




                                                                                                      No Response
                                                    Somewhat




                                                                             Somewhat
                                                                Agree nor
                                     Disagree



                                                     Disagree




                                                                Disagree
                                     Strongly




                                                                                          Strongly
                                                                 Neither




                                                                               Agree



                                                                                           Agree




                                                                                                                     Total
1. I received adequate                                           30          101           71
                                        4            18                                                 6            230
   classroom training as part of                                13.04       43.91         30.87
                                     1.74%         7.83%                                             2.61%          100%
   my Entry Level Training.                                      %            %            %
2. I received adequate on-the-                      25           27          84            83
                                        5                                                               6            230
   job training as part of my                      10.87        11.74       36.52         36.09
                                     2.17%                                                           2.61%          100%
   Entry Level Training.                            %            %            %            %
3. I was adequately supervised
                                                                 30          74            92
   while completing on-the-job          7            18                                                 9            230
                                                                13.04       32.17         40.00
   training as part of Entry Level   3.07%         7.83%                                             3.91%          100%
                                                                 %           %             %
   Training
4. I completed some on-the-job
                                      33            33           47          73            38
   training tasks as part of my                                                                         6            230
                                     14.35         14.35        20.43       31.74         16.52
   Entry Level Training without a                                                                    2.61%          100%
                                      %             %            %           %             %
   mentor or supervisor present.
5. I was capable of independently
                                                                 31          111           68
   conducting mine inspections          3            11                                                 6            230
                                                                13.48       48.26        29.57
   immediately after receiving my    1.30%         4.78%                                             2.61%          100%
                                                                 %            %          %
   AR [inspector] designation.




                                                                            MSHA Inspector Training Program
                                                        17
                             Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               18
                   Report No. 05-10-001-06-001
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                    MSHA Inspector Training Program
                     19
                   Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               20
                   Report No. 05-10-001-06-001
                                      U. S. Department of Labor – Office of Inspector General


                                                                               Appendix A
Background

The U.S. Department of Labor’s Mine Safety and Health Administration (MSHA) is
responsible for administering the provisions of the Federal Mine Safety and Health Act
of 1977 (Mine Act), as amended by the Mine Improvement and New Emergency
Response Act of 2006 (MINER Act), and to enforce compliance with mandatory safety
and health standards as a means to eliminate fatal accidents; to reduce the frequency
and severity of nonfatal accidents; to minimize health hazards; and to promote improved
safety and health conditions in the Nation’s more than 14,000 mines. The Mine Act
applies to all mining and mineral processing operations in the United States, regardless
of size, number of employees, or method of extraction. It requires MSHA to conduct
frequent inspections and investigations in coal and other mines each year and grants
“Authorized representatives [AR] of the Secretary” (commonly referred to as mine
inspectors) the authority to enter any mine at any time to perform these inspections and
issue citations of violations as necessary. The Mine Act also requires the Secretary of
Labor to develop and maintain “adequate programs for the training and continuing
education of inspectors.”

MSHA’s Directorate of Educational Policy and Development (EPD) implements MSHA's
education and training programs promoting safety and health in the Nation's mining
industry. The Directorate plans, monitors, and evaluates all MSHA education and
training programs addressing mine safety and health, and provides entry-level and
journeyman training for MSHA’s enforcement staff. The Directorate also operates the
National Mine Health and Safety Academy at Beaver, W.Va., the world's largest
educational institution devoted solely to safety and health in mining. The academy
serves as the central training facility for federal mine inspectors and mine safety
professionals from other government agencies, the mining industry, and labor. Courses
are offered on safety and inspection procedures, accident prevention, investigations,
industrial hygiene, mine emergency procedures, technology, management techniques,
and other topics. Training courses completed by inspectors at the Academy are
recorded in the Student Information System (SIS). The SIS can produce a complete
transcript (printout) for an inspector that includes the course title, start and end date of
training received, and training hours earned. The transcript also shows the last date an
inspector received training at the Academy. Of MSHA’s FY 2009 budget of $347 million,
$38.6 million (11 percent) was budgeted for the EPD.

MSHA divides mine enforcement into two program offices — Coal Mine Safety and
Health (Coal) or Metal and Nonmetal Mine Safety and Health (Metal/Nonmetal). All
newly hired mine inspectors receive entry-level training. This training covers technical
aspects of mine inspection and additional topics such as effective communications and
professionalism. Entry-level training for Coal inspectors includes 21 weeks (six
modules) of classroom instruction, while entry-level Metal/Nonmetal inspectors receive
23 weeks (six modules) of classroom instruction. Individuals in both groups are also
required to complete on-line training and OJT session in the field. These OJT sessions
are intermingled between classroom sessions and include specifically defined tasks that

                                                           MSHA Inspector Training Program
                                            21
                   Report No. 05-10-001-06-001
                                    U. S. Department of Labor – Office of Inspector General


must be completed under the supervision of an experienced inspector. An entry-level
inspector typically completes the entire training process (both classroom, online and
OJT) in 12 to 16 months.

Subsequent to entry-level training, MSHA policy requires that journeyman inspectors
receive one week of specified retraining each year, or two weeks every other year.
Journeyman training presents up-to-date technical and regulatory information to
journeyman inspectors to help them ensure that the mining community is served most
effectively.




                                                         MSHA Inspector Training Program
                                          22
                   Report No. 05-10-001-06-001
                                        U. S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The OIG audited MSHA’s Mine Inspector Training Program to determine if MSHA
inspectors received training to effectively execute their regulatory responsibilities.

Scope

The audit examined, within both Coal and Metal/Nonmetal, whether (a) newly hired
mine inspectors completed the entry-level training curriculum designated by MSHA and
(b) journeymen mine inspectors completed MSHA’s designated retraining course(s)
within the most recent two-year training cycle. The audit did not evaluate the
curriculum’s technical content or the quality of the instruction. In addition, the audit did
not attempt to correlate inspector training to the rate of accidents, injuries, or fatalities in
mines. For entry-level inspectors, the audit reviewed training records for FYs 2007 and
2008 because these years provided the most recently completed training information at
the start of the audit. For journeyman inspectors, the audit reviewed training records for
FYs 2006 and 2007 because this was the most recent 2-year training cycle that had
been completed when the audit began. Since the FY 2008-2009 training cycle was
completed during the audit, we performed additional work to examine this period for
selected journeyman inspectors in the audit sample.

We determined internal controls were not properly implemented; therefore, we used
substantive testing of training documents to determine whether inspectors received
required training. In addition, we determined the inspector classification information
included in MSHA’s data systems did not provide adequate information for our audit;
therefore, we used inspector training files to identify entry-level and journeyman
inspectors and to test whether the inspectors received required training.

The audit reviewed MSHA’s training records for a sample of inspectors employed by
MSHA as of September 30, 2008. Individuals who became inspectors during FYs 2007
and 2008 were considered “entry-level” mine inspectors. Individuals who became
inspectors prior to FY 2007 were considered “journeyman” mine inspectors.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. We performed audit work at MSHA’s National Office in Arlington, VA
and the National Mine Health and Safety Academy at Beaver, WV.




                                                             MSHA Inspector Training Program
                                              23
                    Report No. 05-10-001-06-001
                                      U. S. Department of Labor – Office of Inspector General


Methodology

To accomplish our objective we obtained an understanding of the MSHA Training
program for both entry-level and journeyman inspectors. We interviewed National Mine
Health and Safety Academy (Academy) personnel, officials from the National Council of
Field Labor Locals (the union representing MSHA mine inspectors), MSHA Coal and
Metal/Nonmetal Program Officials and other Headquarters staff.

We evaluated the extent to which inspectors (both entry-level and journeyman) had 

completed the classroom training prescribed by MSHA for a non-statistical sample of 

inspectors onboard as of September 30, 2008. Non-statistical samples cannot be 

projected to the overall population. The audit universe, based on a listing provided to us 

by MSHA, consisted of 1,037 inspectors — 598 in Coal and 439 in Metal/Nonmetal. To 

avoid bias, we randomly selected 250 inspectors for inclusion in the audit sample and 

then selected 192 inspectors from ordered lists. The audit sample included 110 

(18.4 percent) Coal inspectors and 82 (18.7 percent) Metal/Nonmetal inspectors. Based
on information contained in MSHA’s transcripts, we classified each individual in the
sample as either “entry-level” or “journeyman.”

                         Table 1 – Audit Sample Composition

             Program Area        Entry Level Journeyman               Total
           Coal                           68         42                       110
           Metal/Non-metal                22         60                        82
           Total                          90        102                       192

For each entry-level inspector in the audit sample, we determined whether they had
completed all classroom training prescribed in MSHA’s entry-level training program,
including whether they had completed the minimum requirements prior to being
authorized to perform inspection duties. We reviewed each individual’s training
transcript and other supporting documentation maintained by the Academy.

For each journeyman inspector in the audit sample, we determined whether they had
completed the prescribed retraining course(s) listed in the Academy’s course catalog
during the FY 2006-2007 training cycle. For those who had not completed the
prescribed course within this period, we also determined when they had last attended
the prescribed retraining (prior to 2006) and whether they had completed retraining in
the subsequent FY 2008-2009 cycle. We reviewed each individual’s training transcript
and other supporting documentation maintained by the Academy.

In addition, at our request, MSHA provided a separate listing of entry-level inspectors
who had been active in the OJT program during FY 2007-2008. These were the most
recently completed training years at the beginning of the audit. The list of OJT
participants contained 70 individuals (57 Coal and 13 Metal/Nonmetal). For all the
individuals on this list, we examined training transcripts and other supporting
documentation to determine whether each individual had completed all the OJT

                                                           MSHA Inspector Training Program
                                            24
                   Report No. 05-10-001-06-001
                                     U. S. Department of Labor – Office of Inspector General


prescribed in MSHA’s entry-level training program, including whether they had
completed the minimum OJT requirements prior to being authorized to perform
inspection duties.

We also conducted an email survey of all inspectors on board as of September 2, 2009,
to obtain their views concerning MSHA sponsored training. We summarized and
analyzed the information contained in the 494 (301 Coal, 192 Metal/Nonmetal and
1 other) responses we received. This represented a 43 percent response rate to our
survey. Two hundred thirty responses were received from entry-level inspectors and
264 from journeyman inspectors. Since responses were voluntary, those who chose to
respond to the survey may not represent the views of the entire population.

In performing the audit, we considered whether internal controls significant to the audit
were properly designed and placed in operation. This included reviewing MSHA’s
Federal Mine Safety & Health Act of 1977 and their policies and procedures for
administering training to inspectors. In addition, we examined MSHA’s data systems to
determine whether they could be used as the source for identifying inspectors by type
and as a valid record of inspector training. We confirmed our understanding of internal
controls and data reliability through interviews, walkthroughs, and documentation
reviews.

Our consideration of MSHA’s internal controls for administering training received by
inspectors at the Academy would not necessarily disclose all matters that might be
reportable conditions. Because of inherent limitations in internal controls,
misstatements, or losses, noncompliance may nevertheless occur and not be detected.

Criteria

Federal Mine Safety & Health Act of 1977

“Courses for MSHA and the Mining Industry” catalogs for FYs 2006 through 2009

June 1998 Memorandum from J. Davitt McAteer former Assistant Secretary for Mine
Safety and Health re MSHA Employee Training.

Academy OJT Procedures Manual




                                                          MSHA Inspector Training Program
                                            25
                  Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               26
                   Report No. 05-10-001-06-001
                               U. S. Department of Labor – Office of Inspector General


                                                                        Appendix C
Acronyms and Abbreviations

AIF                          Academy Information Form

Coal                         Office of Coal Mine Safety and Health

EL                           Entry Level

EPD                          Educational Policy and Development

FY                           Fiscal Year

Metal/Nonmetal               Office of Metal/Nonmetal Mine Safety and Health

MSHA                         Mine Safety and Health Administration

OIG                          Office of Inspector General

OJT                          On-the-Job Training

SIS                          Student Information System




                                                    MSHA Inspector Training Program
                                     27
                   Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               28
                   Report No. 05-10-001-06-001
                                U. S. Department of Labor – Office of Inspector General


                                                                        Appendix D
MSHA Response to Draft Report




                                                     MSHA Inspector Training Program
                                      29
                   Report No. 05-10-001-06-001
U. S. Department of Labor – Office of Inspector General




                     MSHA Inspector Training Program
      30                    Report No. 05-10-001-06-001
U. S. Department of Labor – Office of Inspector General




                     MSHA Inspector Training Program
      31                    Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               32
                   Report No. 05-10-001-06-001
                                     U. S. Department of Labor – Office of Inspector General


                                                                             Appendix E
Acknowledgements

Key contributors to this report were Charles Allberry (Audit Director), Zaunder Saucer,
Donald Evans, Grover Fowler, Tinuke Aruwayo, Wilma Perez and Mary Lou Casazza.




                                                          MSHA Inspector Training Program
                                           33
                   Report No. 05-10-001-06-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                              MSHA Inspector Training Program
               34
                   Report No. 05-10-001-06-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
